                   

                

                      U.S. ENVIRONMENTAL PROTECTION AGENCY 

                      OFFICE OF INSPECTOR GENERAL 




                      Public May Be Making
                      Indoor Mold Cleanup Decisions
                      Based on EPA Tool Developed
                      Only for Research Applications
                      Report No. 13-P-0356                    August 22, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                Rick Beusse
                                                    Bao Chuong
                                                    Jim Hatfield




Abbreviations

CRADA          Cooperative Research and Development Agreement
EPA            U.S. Environmental Protection Agency
ERMI           Environmental Relative Moldiness Index
FY             Fiscal Year
HUD            U.S. Department of Housing and Urban Development
MSQPCR         Mold Specific Quantitative Polymerase Chain Reaction
OIG            Office of Inspector General
ORD            Office of Research and Development


Cover photo:       Extensive mold contamination of ceiling and walls. (EPA photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:       OIG_Hotline@epa.gov                     write:      EPA Inspector General Hotline
  phone:       1-888-546-8740                                      1200 Pennsylvania Avenue, NW
  fax:         202-566-2599                                        Mailcode 2431T
  online:      http://www.epa.gov/oig/hotline.htm                  Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                              13-P-0356
                                                                                                       August 22, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review               Public May Be Making Indoor Mold Cleanup Decisions
                                     Based on EPA Tool Developed Only for Research Applications
An Office of Inspector General
hotline complaint alleged that        What We Found
firms were using the
U.S. Environmental Protection        We substantiated the allegation that firms were using the mold index tool
Agency-developed                     although the EPA had not validated the tool for public use. The EPA readily
Environmental Relative               acknowledged that it had not validated or peer reviewed MSQPCR or ERMI for
Moldiness Index tool to              public use. The agency said it considers MSQPCR and ERMI to be research
evaluate homes for indoor mold       tools not intended for public use. Although the EPA has licensed MSQPCR to
even though the EPA had not          companies for introduction into the marketplace under the Federal Technology
validated the tool for public use.   Transfer Act of 1986, neither federal law nor the EPA’s procedures address the
The EPA developed ERMI as a          level of validation needed before or after transferring federally developed
way to objectively describe the      technologies to the private sector. In addition, there are no EPA regulatory
mold burden present in a             requirements for developing or validating indoor mold test methods or assessing
home. The index is based on a        indoor mold levels.
national sample of indoor mold
values. These mold values            Licensees were marketing MSQPCR to the public as part of the ERMI tool. In our
were determined using an             view, one current and one past licensee’s advertising could mislead the public
EPA-patented technology              into thinking that these research tools are EPA-approved methods for evaluating
called mold specific quantitative    indoor mold. The license agreements stipulate that the licensee should not state
polymerase chain reaction.           or imply in any medium that the EPA endorses MSQPCR. In addition, information
MSQPCR is a way to identify          that appeared on an EPA webpage suggested that the EPA validated and
and quantify indoor mold             endorsed MSQPCR for public use. Consequently, there is a risk that the public
species. As of January 2013,         may make inappropriate decisions regarding indoor mold on the belief that
the EPA had 10 active licenses       MSQPCR and ERMI results were based on research tools fully validated and
of the MSQPCR technology.            endorsed by the EPA for public use. Public awareness of indoor mold has risen
We sought to determine               over the past several years, and trade industry and other publications have
whether MSQPCR and ERMI              raised concerns about the legitimacy of some firms offering remediation services.
had been properly peer               Because of the numerous questions the EPA received from the public regarding
reviewed and validated for           the ERMI tool, the EPA drafted a fact sheet on indoor mold, MSQPCR, and
public use.                          ERMI. Informing the public about the ERMI tool and monitoring compliance with
                                     license agreements would improve assurance that the public is not misled about
This report addresses the            the ERMI tool and understands its limitations. However, the EPA has not finalized
following EPA Goal or                or published this fact sheet.
Cross-Cutting Strategy:
                                      Recommendations and Planned Corrective Actions
 Advancing science,
  research, and technological        We recommend that the EPA periodically review licensee advertising of the
  innovation.                        MSQPCR tool to determine whether licensees have violated the terms of the
                                     license agreement and take appropriate actions as necessary. We also
For further information, contact     recommend that the EPA remove or clarify potentially misleading statements on
our Office of Congressional and
                                     its webpage, and finalize a fact sheet on indoor mold, MSQPCR and ERMI to
Public Affairs at (202) 566-2391.
                                     inform the public that MSQPCR and ERMI have not been peer reviewed or
The full report is at:               validated for public use. The agency generally agreed with our report and
www.epa.gov/oig/reports/2013/        provided corrective actions and estimated completion dates that meet the intent
20130822-13-P-0356.pdf               of our recommendations. Also, the agency has removed a webpage containing
                                     potentially misleading statements; thus, we are closing this recommendation.
                           UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                        WASHINGTON, D.C. 20460



                                                                                   THE INSPECTOR GENERAL




                                          August 22, 2013

MEMORANDUM

SUBJECT:       Public May Be Making Indoor Mold Cleanup Decisions Based on EPA Tool
               Developed Only for Research Applications
               Report No. 13-P-0356

FROM:          Arthur A. Elkins Jr.

TO:            Lek Kadeli, Principal Deputy Assistant Administrator
               Office of Research and Development

This is our report on the subject evaluation conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency. This report describes issues the OIG identified and makes
recommendations to address these issues. The report represents the opinion of the OIG and does not
necessarily represent the final EPA position. Final determinations on matters in this report will be
made by EPA managers in accordance with established audit resolution procedures.

Action Required

You are not required to provide a written response to this final report because you agreed to all
recommendations and provided corrective actions and planned completion dates that meet the intent
of our recommendations. Recommendations 1 and 3 remain open with corrective actions ongoing.
Please update the EPA’s Management Audit Tracking System as you complete the planned
corrective actions for recommendations 1 and 3. Since the Office of Research and Development
already completed actions that meet the intent of recommendation 2, we are closing that
recommendation. Please notify my staff if there is a significant change in the agreed-to corrective
actions. We will post this report on our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Assistant Inspector
General for Program Evaluation Carolyn Copper at (202) 566-0829 or copper.carolyn@epa.gov,
or Director for Air Evaluations Rick Beusse at (919) 541-5747 or beusse.rick@epa.gov.
Public May Be Making Indoor Mold Cleanup Decisions                                                                             13-P-0356
Based on EPA Tool Developed Only for Research Applications


                                      Table of Contents 

   Purpose........................................................................................................................    1


   Background .................................................................................................................       1


           The EPA’s Efforts to Address Indoor Mold ...........................................................                       1

           The EPA’s Development and Transfer of the MSQPCR Technology ..................                                             2

           The EPA’s Development of ERMI ........................................................................                     2


   Scope and Methodology.............................................................................................                 3


   Results of Review .......................................................................................................          4


           MSQPCR and ERMI Are Research Tools That Have Not Been 

               Validated or Peer Reviewed for Public Use ...................................................                          4

           Licensee Advertising Could Mislead the Public Into Thinking That 

               MSQPCR is an EPA-Approved Test Method for Evaluating Indoor Mold ......                                                5

           An EPA Office of Science Policy Webpage Suggested That the EPA 

               Had Validated and Endorsed MSQPCR for Public Use .................................                                     6

           Risk That the Public May Make Inappropriate Decisions on Belief That 

               MSQPCR and ERMI Results Are Based on the EPA’s Validated and 

               Endorsed Research Tools ..............................................................................                 6


   Conclusions.................................................................................................................       7


   Recommendations ......................................................................................................             7


   Agency Comments and OIG Evaluation ...................................................................                             8


   Status of Recommendations and Potential Monetary Benefits..............................                                            9




Appendices
   A Agency Comments on Draft Report ....................................................................                            10


   B Distribution ............................................................................................................       13

Purpose
                 The Office of Inspector General received a hotline complaint that alleged firms
                 were using the U.S. Environmental Protection Agency-developed Environmental
                 Relative Moldiness Index® tool to evaluate homes for indoor mold even though
                 the EPA had not validated the tool for public use. We sought to determine
                 whether the EPA’s ERMI tool1 had been properly peer reviewed and validated for
                 public use.

Background
                 According to the EPA, the presence of molds in indoor environments is a growing
                 concern in the United States, but there is no practical way to eliminate all molds
                 and mold spores in the indoor environment. The way to control indoor mold
                 growth is to control moisture, according to the EPA. Eliminating mold growth can
                 prevent damage to building materials and furnishings and prevent health effects
                 and symptoms associated with exposure to mold. Specific reactions to mold
                 exposure can include:

                         Allergic reactions.

                         Asthma.

                         Hypersensitivity pneumonitis.

                         Irritant effects.

                         Opportunistic infections. 


                 The EPA’s Efforts to Address Indoor Mold

                 One of the EPA’s indoor air quality priorities is to reduce exposure to asthma
                 triggers such as mold. The EPA’s Office of Radiation and Indoor Air addresses
                 indoor mold concerns by various means, including educating the public on the
                 health risks associated with mold exposure and how to reduce mold exposure,
                 creating partnerships with public and private sector entities to encourage the
                 public to minimize their risk and mitigate indoor mold problems, coordinating and
                 collaborating with other federal agencies, and conducting research.

                 The EPA’s Office of Research and Development’s National Exposure Research
                 Laboratory conducts research to develop the knowledge and tools necessary to
                 assess potential exposures and risks to emerging environmental threats, and
                 mitigate exposures to known contaminants and environmental stressors. This
                 includes developing detection methods for microbial pathogens and assessment
                 tools. The mold specific quantitative polymerase chain reaction technology and
                 ERMI are products of the National Exposure Research Laboratory’s research.


1
 In this context, the ERMI tool refers to the process of collecting samples in accordance with the ERMI protocol,
analyzing the samples using the MQSPCR and calculating a score using the ERMI algorithm.


13-P-0356                                                                                                           1
                   Currently, the EPA does not have any regulations or standards for airborne mold
                   contaminants. Further, there are no regulatory requirements for test methods used
                   to quantify mold levels, such as those that exist for regulated pollutants and
                   contaminants. There are also no federal requirements for remediation of indoor
                   mold.

                   The EPA’s Development and Transfer of the MSQPCR Technology

                   To understand the significance of mold exposure, a standardized technology was
                   needed for the identification and quantification of mold species. To address this
                   need, the EPA developed MSQPCR, a DNA-based method of mold analysis.
                   MSQPCR can identify and quantify over 100 species of mold. The U.S. Patent and
                   Trademark Office granted the EPA a patent for MSQPCR in May 2002. The two
                   EPA scientists identified on the patent as the inventors assigned their patent rights
                   to the EPA.

                   Under the Federal Technology Transfer Act of 1986, the EPA has licensed
                   MSQPCR to 21 companies since August 2000. The primary purpose of federal
                   technology transfer is to aid the U.S. economy by making U.S. products more
                   competitive in world markets. The concept is for federal labs to get the ideas,
                   inventions and technologies developed with taxpayer dollars into the hands of the
                   private sector as quickly as possible in a form useful to that community. Federal
                   labs must support activities to enhance the awareness, adoption and use of their
                   technology products. Federal law does not specify validation requirements for
                   technology transfer.2

                   Of the 21 companies licensed to use MSQPCR, 10 had active licenses as of
                   January 2013. License agreements were typically valid for 3 to 12 years and may
                   be renewed for successive periods up to 5 years. Two of the 10 active licenses had
                   been renewed for at least one 5-year period.

                   Nine of the 10 companies with active licenses planned to market the technology
                   to various industry sectors, including indoor air quality, environmental laboratory
                   and real estate (e.g., homeowners, commercial building owners). MSQPCR has
                   been applied to assess indoor air and indoor surfaces for molds, such as pre- and
                   post-remediation testing, to show adequate cleaning of problematic mold species.
                   According to the EPA, from fiscal years 2009 through 2012, the EPA’s National
                   Exposure Research Laboratory and the EPA inventors of the MSQPCR
                   technology received over $336,000 in royalties from the licensees.

                   The EPA’s Development of ERMI

                   Although MSQPCR provides a method for identifying and quantifying fungi
                   mold, there had been a lack of a standardized method for describing the mold

2
    Federal law on technologies developed with federal funds is outlined in 15 U.S.C. §§ 3701-22.


13-P-0356                                                                                             2
            burden in a home. In 2007, EPA and U.S. Department of Housing and Urban
            Development researchers developed ERMI as a way to objectively describe the
            mold burden present in a home. These researchers determined that 36 mold
            species were sufficient to describe the mold burden of a home. As part of the
            HUD-sponsored American Healthy Homes Survey, dust samples were collected
            from a nationwide random sampling of 1,096 homes and analyzed by MSQPCR
            for the 36 indicator species. The ERMI values were then calculated for each of the
            1,096 homes. The values were assembled from lowest to highest and divided into
            quartiles. The values ranged from -10 to 20.

            Because ERMI was developed using a nationally representative sampling of
            homes, the EPA and HUD researchers believed that one could compare any newly
            sampled home in the United States to ERMI, and assess the home’s mold burden
            relative to the national sampling of 1,096 homes (i.e., lowest 25 percent, highest
            25 percent, etc.). According to the EPA, as of January 2013, researchers have
            applied ERMI in childhood asthma studies in cities across the United States,
            including Cincinnati, Chapel Hill, Detroit, Boston, Kansas City and San Diego.
            The studies found higher ERMI values in homes of asthmatic children compared
            to controls.

Scope and Methodology
            We conducted our review from December 2012 to June 2013 in accordance
            with generally accepted government auditing standards. Those standards
            require that we plan and perform our review to obtain sufficient, appropriate
            evidence to provide a reasonable basis for our findings and conclusions based
            on our objectives. We believe that the evidence obtained provides a reasonable
            basis for our findings and conclusions based on our objectives.

            To accomplish our objective, we interviewed the complainant, as well as ORD,
            Office of General Counsel, and Office of Radiation and Indoor Air staff; and
            managers in Washington, D.C.; Research Triangle Park, North Carolina;
            Cincinnati, Ohio; and Denver, Colorado. We also reviewed documents provided
            by the complainant and ORD, as well as information we gathered from Internet
            searches. We reviewed the license agreements and associated documents for all
            10 active licensees and one former licensee. These documents included
            development and marketing plans, and cooperative research and development
            agreements. We reviewed the websites of the EPA and current and former
            licensees for information on MSQPCR, ERMI and indoor mold. We reviewed an
            ORD-requested external peer review of MSQPCR and ERMI, and EPA articles on
            the development of MSQPCR and ERMI that were published in peer-reviewed
            journals. We also obtained information on the amount of royalties the EPA and
            the EPA researchers received between FYs 2009 and 2012.




13-P-0356                                                                                    3
Results of Review
            The EPA readily acknowledged that MSQPCR and ERMI have not been validated
            or peer reviewed by EPA for public use. The agency considers MSQPCR and
            ERMI to be research tools not intended for public use. However, the manner in
            which one active and one inactive licensee advertised MSQPCR and ERMI has
            the potential to mislead the public into thinking that these research tools are
            EPA-approved methods for evaluating indoor mold. Also, information appearing
            on an EPA Office of Science Policy webpage suggests that the EPA has validated
            and endorsed MSQPCR for public use. The EPA has developed but has not
            finalized a fact sheet on MSQPCR, ERMI and indoor mold for the public.
            Consequently, there is a risk that the public may make inappropriate decisions or
            take unnecessary actions regarding indoor mold on the belief that MSQPCR and
            ERMI results were based on research tools fully validated and endorsed by the
            EPA for public use.

            MSQPCR and ERMI Are Research Tools That Have Not Been
            Validated or Peer Reviewed for Public Use

            The EPA managers stated that both MSQPCR and ERMI are research tools that
            have not been validated or peer reviewed by the EPA for public use. However, the
            EPA intended them for public domain use by transferring the technology under
            the Federal Technology Transfer Act. Each of the 10 active license agreements
            noted the EPA’s desire that the licensee make MSQPCR available to the public in
            the shortest possible time. According to the agreements, this would serve the
            public interest by providing improved products and processes for identifying and
            quantifying mold. Further, the licensee development and marketing plans
            explained how the licensees would commercialize MSQPCR. One licensee, in its
            application, described the potential to use ERMI to determine whether a house is
            normal or abnormal with respect to moldiness.

            Based on EPA’s guidance, if the EPA were to publish MSQPCR as an EPA
            approved method, a multi-lab validation study would be conducted to ensure that
            labs could obtain consistent results using the MSQPCR technology. However,
            none of the licensee development and marketing plans we reviewed included a
            plan to participate in a multi-lab validation study. Since the EPA does not regulate
            indoor mold, there are no regulatory requirements regarding the development of
            indoor mold quantification technology or its use.

            Although MSQPCR and ERMI had not been validated or peer reviewed for public
            use by the EPA, the development of these tools was published in peer-reviewed
            journals. Also, numerous studies based on using these tools were published in
            peer-reviewed journals. Further, in February 2010, the EPA conducted an external
            peer review of the science behind MSQPCR and ERMI.




13-P-0356                                                                                     4
            According to the EPA, the external peer review:

                  Concluded that the MSQPCR technology was an advancement in mold
                   characterization.
                  Provided several areas for further improvement, particularly sampling.
                  Supported the ERMI approach as a research tool for assessing the
                   relationship between mold growth from water damage and health impacts.

            This external peer review did not address the readiness of MSQPCR and ERMI
            for public use.

            Licensee Advertising Could Mislead the Public Into Thinking That
            MSQPCR is an EPA-Approved Test Method for Evaluating Indoor Mold

            Statements on the websites of a current licensee and a former licensee could be
            interpreted to suggest that MSQPCR was an EPA-approved method for evaluating
            indoor mold levels. The license agreements prohibit licensees from making any
            claims that EPA endorses the licensed technology, and violation of the terms of
            the license agreement could result in termination of the license. All license
            agreements stipulate the following:

                  The license agreement does not constitute an endorsement of MSQPCR by
                   the EPA.
                  The licensee should not state or imply in any medium that such
                   endorsement exists as a result of the license agreement.

            However, at the time we concluded our review in May 2013, one active licensee’s
            website stated that “the science and technology [of MSQPCR and ERMI] is
            backed by the EPA.” Further, the website of an inactive licensee, whose license
            expired nearly 3 years ago, included the following statement:

                   The United States Environmental Protection Agency (USEPA)
                   developed a standard for indoor mold analysis called ERMI ….
                   Due to the establishment of a standard, this new test makes
                   obsolete all previous tests used to identify potential mold related
                   issues, including traditional microscopic analysis of spore traps,
                   tape lifts, and swabs. [Company name] is one of 16 labs worldwide
                   to be licensed by the EPA to perform ERMI analysis.

            In our view, these statements suggest endorsement by the EPA, which would
            violate the terms of the agreement. The above statements suggested that ERMI,
            along with MSQPCR, had been validated and that the EPA endorsed these tools
            for public use. In particular, referring to ERMI as an EPA-developed standard is
            misleading as the general public may interpret the term standard as applied to the
            EPA to refer to establishment through the regulatory process.



13-P-0356                                                                                        5
            Federal technology transfer staff at the EPA stated that they do not have a
            program to monitor licensees’ compliance with the current terms of the license
            agreements. We have informed the agency of the misleading advertising by the
            active and inactive licensees so that they may take appropriate actions.

            Additionally, we found instances where firms that were not issued MSQPCR
            licenses by EPA either stated or suggested on their websites that ERMI is an
            EPA-approved method for mold analysis. In one instance, a firm’s website
            included the EPA’s logo in advertising its services for ERMI analysis. The use of
            the EPA logo is prohibited for commercial purposes such as the promotion of a
            product or service. Unauthorized use would suggest government approval of the
            privately provided product or service.

            An EPA Office of Science Policy Webpage Suggested That the EPA
            Had Validated and Endorsed MSQPCR for Public Use

            As of May 2013, an EPA Office of Science Policy webpage contained statements
            suggesting that the EPA had validated and endorsed MSQPCR for public use. The
            webpage contained the following statement:

                   Anyone, anywhere, if the technique [MSQPCR] is used properly,
                   should get the same identification and quantification for the target
                   mold as anyone else.

            Further, a list of the MSQPCR applications on the website included the following
            language:

                   Determining if an environment is abnormally mold contaminated;
                   testing homes for potentially pathogenic molds . . .

            In our view, these statements suggest that MSQPCR has been validated and
            endorsed by the EPA for public use.

            Risk That the Public May Make Inappropriate Decisions on
            Belief That MSQPCR and ERMI Results Are Based on the EPA’s
            Validated and Endorsed Research Tools

            There is a risk that the public may make inappropriate decisions or take
            unnecessary actions regarding indoor mold due to their belief that their mold tests
            were based on research tools that are fully validated and endorsed by the EPA for
            public use. Because MSQPCR and ERMI have not been validated and peer
            reviewed for public use, the work necessary to assure that mold test results are
            accurate has not been done. Further, if samples from the same home were sent to
            two or more MSQPCR licensed labs, there is no guarantee that the homeowner
            would get the same test results.




13-P-0356                                                                                     6
            If mold samples are not collected in accordance with the sampling procedures
            used to develop the ERMI, the results would be of questionable value. At least
            five of the 10 companies with active MSQPCR licenses offered to test homes for
            the 36 indicator mold species using MSQPCR and then calculate an ERMI value
            for the client. We found one instance where a licensed company produced an
            ERMI value for a commercial building even though the ERMI values are based
            on testing of residential homes. Consequently, homeowners and building owners
            are at risk of spending tens of thousands of dollars to remediate their homes or
            buildings based on test results that may or may not be accurate. Further, other
            homeowners and building owners may not take needed remedial actions to
            address indoor mold risks based on the test results.

            Given the increased public awareness of indoor mold and, according to an EPA
            manager in the Office of Radiation and Indoor Air, an increase in the number of
            indoor mold remediation firms, it is important that the public is aware of the
            strengths and limitations of the ERMI tool. EPA has received questions from the
            public regarding ERMI, including the interpretation of ERMI values. In some
            instances, people contacting the EPA asked for the EPA’s recommendations on
            which labs to use in obtaining ERMI evaluations. To ensure consistency in the
            agency’s response to such questions, the EPA has developed, but not finalized,
            a fact sheet for the public on indoor mold, MSQPCR, and ERMI.

Conclusions
            The EPA readily acknowledged that it had not validated MSQPCR or ERMI for
            public use. However, public use of these tools has resulted from the transfer of the
            MSQPCR technology to licensees. Public inquiries received by EPA staff suggest
            that there is a risk the public may make inappropriate decisions regarding indoor
            mold based on the belief that the ERMI tool has been fully validated by the EPA
            for public use. Information that has appeared on the EPA’s webpage and on those
            of some of the licensees, as well as the fact that EPA has licensed the use of the
            technology, could have contributed to this misconception. Based on public
            concerns about indoor mold and its possible health impacts, there is the potential
            for firms or individuals to overstate the implications of the ERMI tool results to
            clients in order to persuade them to undertake more costly remediation services.
            In our view, the EPA has an obligation to inform the public on the limitations of
            this tool and explain the EPA’s position on its use for assessing indoor mold
            concerns.

Recommendations
            We recommend that the assistant administrator for the Office of Research and
            Development:
               1.	 Periodically review licensee advertising to determine whether licensees
                   have violated the terms of their agreement by implying the EPA’s
                   endorsement of MSQPCR and take appropriate action based on the results
                   of this review.


13-P-0356                                                                                      7
               2.	 Remove or clarify statements on the EPA’s website that imply or suggest
                   the EPA validated or endorsed MSQPCR for public use.

               3.	 Finalize the fact sheet on indoor mold, MSQPCR and ERMI to include
                   discussion on the limitations of these tools and make it available to the
                   public, including posting the fact sheet on the EPA’s website.

Agency Comments and OIG Evaluation
            ORD generally agreed with our recommendations and provided a corrective
            action plan with milestone dates to address recommendations 1 and 3. ORD’s
            proposed corrective actions and planned completion dates for recommendations 1
            and 3 meet the intent of our recommendations. These recommendations will
            remain open pending completion of the proposed corrective actions.

            For recommendation 2, ORD removed the webpage in question. Therefore, we are
            closing recommendation 2.

            No further EPA response to this report is required. Appendix A contains the
            agency’s response to our draft report, including its planned actions for each
            recommendation.




13-P-0356                                                                                      8
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                    Planned
    Rec.    Page                                                                                                   Completion   Claimed    Agreed-To
    No.      No.                          Subject                         Status1         Action Official             Date      Amount      Amount

     1        7     Periodically review licensee advertising to             O        Assistant Administrator for    9/30/14
                    determine whether licensees have violated the                   Research and Development
                    terms of their agreement by implying the EPA’s
                    endorsement of MSQPCR and take appropriate
                    action based on the results of this review.

     2        8     Remove or clarify statements on the EPA’s website       C        Assistant Administrator for    7/26/13
                    that imply or suggest the EPA validated or                      Research and Development
                    endorsed MSQPCR for public use.

     3        8     Finalize the fact sheet on indoor mold, MSQPCR          O        Assistant Administrator for    11/22/13
                    and ERMI to include discussion on the limitations               Research and Development
                    of these tools and make it available to the public,
                    including posting the fact sheet on the EPA’s
                    website.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




13-P-0356                                                                                                                                              9
                                                                                                      Appendix A


                     Agency Comments on Draft Report
                                                       July 26, 2013

MEMORANDUM

SUBJECT:          Response to the Office of Inspector General Draft Report, Results of Hotline
                  Complaint Review of the EPA’s Tool of Evaluating Indoor Mold, Project No. OPE­
                  FY13-0007, June 12, 2013

FROM:             Lek G. Kadeli, Principal Deputy Assistant Administrator

TO:               Arthur A. Elkins, Jr., Inspector General
                  Office of Inspector General (OIG)

Thank you for the opportunity to respond to the OIG draft report titled, Results of Hotline
Complaint Review of the EPA's Tool for Evaluating Indoor Mold. The Environmental Protection
Agency (EPA) is committed to protecting the public health and appreciates the OIG's efforts to
ensure that the public does not make potentially inappropriate decisions regarding indoor mold.

The Agency generally agrees with the OIG's recommendations and can improve monitoring
efforts to ensure licensees' compliance with terms of license agreements under the Federal
Technology Transfer Act (FTTA). However, we believe that the decision to license the
technology in question was proper and in full accordance with the intent of the FTTA. In
response to both public and the OIG's inqui ry, the EPA's Office of Research and Development
(ORD) has acknowledged that an indexing tool (ERMI) and patented method for characterizing
mold (MSQPCR), licensed to private companies, had been properly peer reviewed but not
validated for uses other than research.

The MSQPCR patent was licensed in accordance with the Patent Act, 35 U.S.C. § 207, and the
FTTA, 15 U.S.C. § 3710a. Congress enacted the FTTA in 1986 to promote the speedy and
efficient transfer of the fruits of federal laboratory research into the market place1 and delegated
decision-making authority to laboratory directors expressly to bypass some of the impediments
common in other types of agency programs.2

It appears that the hotline complaint is based on the assumption that the patented method and
indexing tool should have been validated for routine public use before EPA/ORO licensed the
technology. Federal law does not specify validation requirements for technology transfer.
Licensing the MSQPCR patent (already found “new and useful” after the rigors of the patent



1
  For example, see: S. Rep. No. 99-283, at 1, “The purpose of this bill is to improve the transfer of commercially 

useful technologies from the federal laboratories and into the private sector.” 

2
  For example, see: S. Rep. No. 99-283, at 4, “A requirement to go to agency headquarters for approval of

collaborative arrangements and patent licensing agreements can effectively prevent them.” 



13-P-0356                                                                                                              10
application process) and the use of the ERMI tool allows the technology to be assessed and
potentially improved by its actual, real-world application.

In addition, federal agency technology transfer programs operate differently from more familiar
agency programs, like rule-making, permitting and product and labeling approvals. In these
programs, agencies gather information (often through validation and peer review processes),
identify and debate options at length, and then establish enforceable standards that manufacturers
and others must meet. In technology transfer programs, the EPA and other agencies look to the
private sector to improve, test, use or even reject technology produced in federal laboratories.

In conclusion, we thank you again for the opportunity to provide our comments to the OIG's
report. The EPA's responses to the OIG's recommendations are provided below.

AGENCY RESPONSE TO REPORT RECOMMENDATIONS

  No.   Recommendation                   Corrective Action (s)                     Estimated
                                                                                   Completion
                                                                                   Date
  1      Periodically review           ORD/OARS Federal Technology                 9/30/2013
         licensee advertising to       Transfer Act (FTTA) staff has started
         determine whether licensees   the process of reviewing websites of all
         have violated the terms of    active MSQPCR licensees to look for
         their agreement by implying   language that suggests endorsement or
         the EPA's endorsement of      validation by EPA. FTTA staff will
         MSQPCR and take               work with OGC to address any such
         appropriate action based on   issues with licensees.
         the results of this review.   The FTTA staff will institute a more        First annual
                                       comprehensive, annual review of all         review
                                       active FTTA licensees to look for           will be
                                       language that suggests endorsement or       completed by
                                       validation by EPA. FTTA staff will          the end of
                                       work with OGC to address any such           FY14
                                       issues with licensees.
  2     Remove or clarify statements ORD has removed the website.                  Complete
        on the EPA's website that
        imply or suggest the EPA
        validated or endorsed
        MSQPCR for public use.
  3     Finalize the fact sheet on     ORD/NERL will finalize the fact sheet       To be
        indoor mold, MSQPCR and        and make it available by posting on an      completed
        ERMI to include discussion     EPA website and providing it to the         within three
        on the limitations of these    public when questions arise about the       months of the
        tools and make it available to technology.                                 issuance of
        the public, including posting                                              OIG's final
        the fact sheet on the EPA's                                                report
        website.




13-P-0356                                                                                       11
Should you or your staff have any questions, please contact Deborah Heckman at (202) 564­
7274.

cc:	   Ramona Trovato
       Bob Kavlock
       Alice Sabatini
       Jennifer Orme-Zavaleta
       Fred Hauchman




13-P-0356                                                                                   12
                                                                              Appendix B

                                    Distribution

Office of the Administrator
Principal Deputy Assistant Administrator for Research and Development
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Associate Assistant Administrator, Office of Research and Development
Deputy Assistant Administrator for Science, Office of Research and Development
Director, Office of Administrative and Research Support, Office of Research and Development
Director, National Exposure Research Laboratory, Office of Research and Development
Director, Office of Science Policy, Office of Research and Development
Audit Follow-Up Coordinator, Office of Research and Development




13-P-0356                                                                                 13
